Docket number

Supreme Court of the United States
Trent Slone,
Petitioner,
vs
United States of America,
Respondent.
On Petition for Writ of Certiorari to the United States Court of Appeals
for the Seventh Circuit
Motion for Leave to Proceed
In Forma Pauperis
William J. Stevens, a member of the bar of this Court and counsel of
record for Petitioner, Trent Slone moves pursuant to Supreme Court Rule
39.1 to proceed In Forma Pauperis.
Counsel was appointed by the United States District Court for the
Northern District of Indiana and by the United States Court of Appeals for
the Seventh Circuit under the Criminal Justice Act of 1964, 18 USC ยง
3006A and asks that he be permitted to proceed in this Court with a petition
for writ of certiorari to the United States Court of Appeals for the Seventh
Circuit under Supreme Court Rule 12.2 and 33.2 without the payment of
costs or court fees.
William J. Stevens
Counsel of Record for
Petitioner, Trent Slone
P.O. Box 747
Bridgman MI 49106

_/s/William J Stevens__

telephone (269)469-1469

